SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8000
JGREEN@SID LEY.C OM
AMERICA • ASIA PACIFIC

• EUROPE

RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20Derek Michael Rigsby,
v.

Petitioner

Colorado,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Jeffrey T. Green, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 3,337 words,
excluding the parts of the document that are excluded by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 9, 2021.

/s/ Jeffrey T. Green
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
jgreen@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

